FEDERAL PUBLIC DEFENDER
NORTHERN DISTRICT OF TEXAS
FEDERAL PUBLIC DEFENDER
JASON D. HAWKINS
FIRST ASSISTANT
JOHN NICHOLSON
ADMINISTRATIVE OFFICER
JACQUELINE BUNKLEY

525 S. GRIFFIN
STREET
SUITE 629
DALLAS, TX 75202

LUBBOCK-AMARILLO BRANCH SUPERVISOR
LARA WYNN

Voice: (214) 767-2746
Fax: (214) 767-2886
http://txn.fd.org

FORT WORTH BRANCH SUPERVISOR
MICHAEL LEHMANN
APPELLATE SUPERVISOR
K. JOEL PAGE
CAPITAL HABEAS UNIT SUPERVISOR
JEREMY SCHEPERS

October 20, 2020
Honorable Scott S. Harris
Clerk of the Court Supreme Court of the United States
1 First Street NE
Washington, DC 20543
Re: Rigoberto Avila, Jr. v. Texas, No. 20-5342 (Capital Case)
Dear Mr. Harris,
Respondent filed its brief in opposition to certiorari in the above-captioned case
on October 14, 2020. The first distribution date for in forma pauperis petitions
following the 14-day grace period is October 29, 2020.
Pursuant to the Court’s March 19, 2020 order, Petitioner respectfully requests
that the Court delay distribution of this petition by 30 days, which would be the
Court’s December 3, 2020 distribution date. Petitioner requests this additional time
to file a reply in support of his petition for writ of certiorari based on substantial
disturbances caused by the COVID-19 pandemic.
Respondent does not oppose this request.
Very truly yours,

Jeremy Schepers
Counsel of Record
Supervisor, Capital Habeas Unit
jeremy_schepers@fd.org

CC: Stephen Hoffman and Garrett Greene, Counsel for Respondent
1 | P a ge

